                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: All060039                                                                      Page 1 of 1



                 We assessed an allegation that a principal investigator 1 (PI) at a university 2 committed
        research misconduct by engaging in data fabrication and falsification in four published
        manuscripts 3 which either acknowledged NSF support or were cited as preliminary results or
        products in NSF proposals/awards. 4 The university conducted an inquiry and the inquiry panel' s
        final report concluded that no research misconduct had occurred. However, remedial training
        sessions for the PI on research record keeping were recommended and for the PI to develop a
        plan to ensure the appropriate maintenance of research records. Our conclusion is that we concur
        with the inquiry panel's findings and a questionable research practice warning letter was sent to
        the PI regarding research record keeping. We also requested documentation of the PI's
        completion of the remedial training sessions and the PI's development of research records
        maintenance plan. Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (ll/02)
